No. 20-5598
In the Supreme Court of the United States

GARY RICHARDSON,
Petitioner,
v.
COLORADO,
Respondent.

On Petition for a Writ of Certiorari to the
Colorado Supreme Court

CERTIFICATE OF SERVICE

I, L. Andrew Cooper, a member of the Bar of the United States Supreme Court,
certify that on October 16, 2020, as required by Supreme Court Rule 29.3 and the
Court’s April 15, 2020 Order, I caused the foregoing Motion under Supreme Court
Rule 30.4 to Extend Time to File Brief in Opposition to be electronically filed
with the Clerk of the U.S. Supreme Court; and also to be served on counsel of record
for the Petitioner, electronically at the email address below:
Nicole M. Mooney
MS&M Law Office
P.O. Box 3089
Denver, CO 80201
Email: nicolemariemooney@yahoo.com
Counsel of Record for Petitioner

FOR THE ATTORNEY
GENERAL
Digitally signed by L.
L. Andrew
Andrew Cooper
Date: 2020.10.16
Cooper
13:45:08 -06'00'
L. Andrew Cooper
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, 10th Floor
Denver, CO 80203
(720) 508-6465
Email: andrew.cooper@coag.gov
Counsel of Record for Respondent

